           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement–Vulnerability                Date:   August 30, 2010
           Assessment of the Federal Aviation Administration's
           (FAA) Operational Air Traffic Control System
           Project Number 10F3016F000

  From:    Louis King                                               Reply to
                                                                    Attn. of:   JA-20
           Acting Assistant Inspector General for Financial
             and Information Technology Audits

    To:    Federal Aviation Administrator


           The Office of Inspector General (OIG) is initiating an information technology
           vulnerability assessment of FAA's operational Air Traffic Control (ATC) System.
           This audit was requested by the Ranking Members of the House Transportation
           and Infrastructure Committee and the Subcommittee on Aviation. The OIG has
           contracted with Clifton Gunderson LLP, an independent public accounting firm, to
           perform the audit subject to OIG oversight.

           The objective of this audit is to determine whether operational ATC systems can
           be accessed by unauthorized users from inside ATC facilities through FAA’s
           Mission Support/Administrative System Network.

           This audit will be conducted at FAA headquarters in Washington, DC, and two
           FAA Air Route Traffic Control Centers selected by OIG. We plan to begin work
           immediately. We will contact your audit liaison to schedule an entrance
           conference to discuss the audit. If you have any questions, please call me at (202)
           366-4350 or Nathan Custer, Program Director, at (202) 366-5540.


           cc: Chief Information Officer, DOT
               Martin Gertel, M-1
               Assistant Administrator for Information Services/CIO, FAA
               Anthony Williams, AAE-001
